No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
MICHAEL SUAREZ,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Michael Suarez, through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of Certiorari
filed in the above-styled matter was sent in an envelope via third party commercial
carrier for delivery within three days, addressed to the Clerk of the Supreme Court
of the United States, on the 8th day of March, 2021, which is timely pursuant to the
rules of this Court.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida
March 8, 2021

By:___s/Margaret Y. Foldes____________
Margaret Y. Foldes
Assistant Federal Public Defender
1 East Broward Blvd. Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436

